APPENDIX

1a
APPENDIX A
This opinion is subject to revision before publication
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
————
No. 18-0308
Crim. App. No. 20160339
————
UNITED STATES,
v.

Appellee,

CEDRIC L. MCDONALD,
PRIVATE FIRST CLASS UNITED STATES ARMY,
Appellant.
————
Argued February 19, 2019—Decided April 17, 2019
————
Military Judge: Douglas K. Watkins
————
For Appellant: Captain Steven J. Dray (argued);
Colonel Elizabeth G. Marotta, Lieutenant Colonel
Christopher D. Carrier, Lieutenant Colonel Tiffany D.
Pond, and Major Julie L. Borchers (on brief).
For Appellee: Captain Sandra L. Ahinga (argued);
Colonel Steven P. Haight and Major Wayne H.
Williams (on brief).
Chief Judge STUCKY delivered the opinion of the
Court, in which Judges RYAN, OHLSON, SPARKS,
and MAGGS, joined.
————

2a
Chief Judge STUCKY delivered the opinion of the
Court.
Appellant was convicted of sexual assault by bodily
harm on a nonconsent theory. The military judge in
his case gave no specific mens rea instruction beyond
the standard mistake of fact defense, which provides a
defense if the accused had an honest and reasonable
(nonnegligent) belief that consent was obtained. Appellant, however, contends that Elonis v. United States,
135 S. Ct. 2001 (2015), required the military judge
to instruct the members that a mens rea of at least
recklessness with regard to consent was necessary for
conviction. We granted review to determine the required
mens rea for sexual assault by bodily harm, and conclude that Congress clearly implied a general intent
mens rea for that offense.
I. Procedural History
A general court-martial composed of officer and
enlisted members convicted Appellant, contrary to his
pleas, of one specification of conspiracy to commit
sexual assault and one specification of sexual assault
by bodily harm in violation of Articles 81 and 120,
Uniform Code of Military Justice (UCMJ), 10 U.S.C.
§§ 881, 920 (2012). He was sentenced to a dishonorable
discharge, reduction to the lowest enlisted grade,
forfeiture of all pay and allowances, and three years of
confinement. The convening authority approved the
findings and sentence, and the United States Army
Court of Criminal Appeals (CCA) affirmed. United
States v. McDonald, No. ARMY 20160339, 2018 CCA
LEXIS 239, at *9, 2018 WL 2273588, at *4 (A. Ct.
Crim. App. May 16, 2018).

3a
II. Background
Private Quantavious Thomas, Appellant’s barracks
roommate, met DJ, a civilian woman, on a dating
website in the summer of 2015. Private Thomas and
DJ had met socially on two occasions prior to the night
in question. Appellant was present for both these
occasions, but had never spoken with DJ.
On August 31, DJ went to Appellant and Private
Thomas’s shared barracks room at the latter’s request.
Prior to arriving, DJ asked twice via text message if
anyone else would be in the room, and he replied no
both times. DJ also insisted via text that she was not
coming over for sex. It was dark when she first entered
the shared barracks room, and she testified that there
was no sign of anyone else in the room. However,
Appellant was present, in his half of the shared room.
The parties all agree that eventually DJ and Private
Thomas began to have sex, that at some point DJ bent
over the bed so that Private Thomas could penetrate
her vulva with his penis from behind, and that at
some point Appellant took Private Thomas’s place and
penetrated DJ from behind.
DJ stated that she was unaware of Appellant’s
presence in the room until she reached back during
intercourse and felt Appellant’s wristwatch, an accessory she knew Private Thomas was not wearing. She
testified that no one had asked her for her consent to
sexual intercourse with Appellant. Private Thomas
testified that DJ could clearly see Appellant when she
walked into the room, and that he (Private Thomas)
asked her—with Appellant standing next to both of
them—if both he and Appellant could have sex with
her. Appellant’s statement to CID, admitted into evidence, included a claim that he asked DJ if he could

4a
have sex with her, “and she said yeah.” It also stated
that he did not feel like he had done anything wrong
because “there was consent.” Defense counsel argued
in closing that “[Appellant] knew he was 100 percent,
convinced she was consenting. There is no lack of
consent on his part, as he told CID.”
Appellant did not object to the instructions given by
the military judge, which were provided in advance
with time to review and make objections. Nor did he
object when the instructions were read to the members. The military judge instructed the members that
they must find three elements beyond a reasonable
doubt: (1) that Appellant committed a sexual act upon
DJ by penetrating her vulva with his penis, (2) that he
did so by causing bodily harm, namely penetrating
DJ’s vulva with his penis, and (3) that he did so
without DJ’s consent.
His instructions regarding consent and mistake
of fact as to consent mirrored the language of the
Military Judges’ Benchbook, the Rules for CourtsMartial (R.C.M.), and Article 120, UCMJ.1 Specifically,
the military judge instructed that consent “means a
freely given agreement to the conduct at issue by a
competent person,” that “[l]ack of verbal or physical
resistance . . . does not constitute consent,” and that
any mistake of fact must be “reasonable under all the
circumstances” and not “based on the negligent failure
to discover the true facts.”

1

Dep’t of Army, Pam. 27–9, Legal Services, Military Judges’
Benchbook para. 3–45–14 (2014); R.C.M. 916(j)(1); Article 120(g)(8),
(f), UCMJ, 10 U.S.C. § 920(g)(8), (f) (2012).

5a
III. Law and Discussion
The mens rea applicable to an offense is an issue of
statutory construction, reviewed de novo. See United
States v. Gifford, 75 M.J. 140, 142 (C.A.A.F. 2016).
When panel instructions are not objected to at trial,
they are reviewed by this Court for plain error. United
States v. Haverty, 76 M.J. 199, 208 (C.A.A.F. 2017).
Relief will only be granted where (1) there was error
that was (2) clear or obvious, and that (3) materially
prejudiced a substantial right of the accused. United
States v. Armstrong, 77 M.J. 465, 469 (C.A.A.F. 2018).
In determining the mens rea applicable to an offense,
we must first discern whether one is stated in the text,
or, failing that, whether Congress impliedly intended
a particular mens rea. Gifford, 75 M.J. at 143–44.
We conclude that Congress clearly intended a general intent mens rea for Article 120(b)(1)(B), 10 U.S.C.
§ 920(b)(1)(B) (2012), sexual assault by bodily harm.
The military judge’s instructions were therefore not
erroneous. Accordingly, we need not reach the second
or third prongs of the plain error analysis. We reach
this conclusion for four reasons: (1) the plain text of
the statute clearly implies a general intent offense,
(2) the offense evolved from a general intent offense,
(3) the presence of a negligence mens rea elsewhere in
the statute suggests that Congress affirmatively chose
to leave sexual assault by bodily harm as a general
intent offense, and (4) construing the statute as a general
intent offense does not criminalize innocent conduct.
A. Plain Language
“As in all statutory construction cases, we begin
with the language of the statute.” Barnhart v Sigmon
Coal Co., 534 U.S. 438, 450 (2002). Appellant was
charged with “sexual assault by causing bodily harm”

6a
in violation of Article 120(b)(1)(B), UCMJ, 10 U.S.C.
§ 920(b)(1)(B) (2012). At the time, Article 120(b)(1)(B)
provided that any person subject to the UCMJ who
“commits a sexual act upon another person by . . .
causing bodily harm to that other person . . . is guilty
of sexual assault and shall be punished as a courtmartial may direct.” Article 120(g)(1)(A) defined “sexual
act” to include “contact between the penis and the vulva
or anus or mouth, and for purposes of this subparagraph
contact involving the penis occurs upon penetration,
however slight.” Article 120(g)(3) defined “bodily
harm” as “any offensive touching of another, however
slight, including any nonconsensual sexual act.” Article
120(g)(8)(A) further defined “consent” as “a freely given
agreement to the conduct at issue by a competent
person.” Article 120(f), meanwhile, permitted an accused
to raise any applicable defenses available under the
R.C.M., and here Appellant raised the affirmative
defense of mistake of fact. R.C.M. 916(j)(1). For the
defense of mistake of fact to exist, “the ignorance or
mistake of fact must have existed in the mind of the
accused and must have been reasonable under all the
circumstances.” Id. Once raised, the Government bore
the burden to prove beyond a reasonable doubt that
the defense did not exist. R.C.M. 916(b)(1).
The statutory elements are thus ultimately straightforward: it is an offense to commit a sexual act without
consent, although an honest and reasonable (nonnegligent) mistake of fact as to consent serves as an
affirmative defense. Such a construction typically suggests a general intent offense. Cf. United States v.
Langley, 33 M.J. 278, 281 (C.M.A. 1991) (“No specific
intent is mentioned in the [Article 120 rape] statute—
only general criminal mens rea is involved.”); United
States v. Binegar, 55 M.J. 1, 11 (C.A.A.F. 2001)
(Crawford, C.J., dissenting on other grounds) (Discussing

7a
the elements of rape: “Here, the statutory language
of the crime does not assign a specific intent mens rea
to any of the elements. Therefore, only an honest and
reasonable mistake will suffice because the entire
crime is one of general intent.”).
We have recognized that, per Elonis, the existence
of a mens rea is presumed in the absence of clear
congressional intent to the contrary. Haverty, 76 M.J.
at 203–04. However, we also recognize that a general
intent mens rea is not the absence of a mens rea, and
such offenses remain viable in appropriate circumstances post-Elonis. Elonis, 135 S. Ct. at 2010 (“In
some cases, a general requirement that a defendant
act knowingly is itself an adequate safeguard.”). Thus,
we conclude that the plain text clearly implies a
general intent offense.2
B. Legal Context
Further, the appropriate mens rea can be implied
from context. Haverty, 76 M.J. at 204. “We assume
that Congress is aware of existing law when it passes
legislation.” Miles v. Apex Marine Corps, 498 U.S. 19,
32 (1990). Thus we must “take into account [the] contemporary legal context” at the time the statute was
passed. Cannon v. University of Chicago, 441 U.S. 677,
699 (1979).
Article 120 rape stated a general intent offense
when Congress established sexual assault by bodily
2

We note that Congress did articulate a specific mens rea for
other types of sexual assault by bodily harm. For certain types
of sexual acts, the government must show that the accused
acted with the “intent to abuse, humiliate, harass, or degrade any
person,” or “to arouse or gratify the sexual desire of any person.”
Article 120(g)(1)(B), UCMJ, 10 U.S.C. § 920(g)(1)(B) (2012)). In
such a case, obviously, that specific intent must be proved as well.

8a
harm. See Langley, 33 M.J. at 281–82. This was
consistent with the common law crime of rape, which
was also a general intent crime. 2 Wayne R. LaFave,
Substantive Criminal Law § 17.2(b) (3d ed. 2018)
(“[T]here exists no issue in the prosecution of the crime
of rape regarding defendant’s perception of the requisite attendant circumstances (e.g., whether or not the
woman had given consent).”); see also 75 C.J.S. Rape
§ 55 (2019) (“The crime of rape has always been
considered a general-intent crime. . . .”). Nothing in the
text of the statute indicates any congressional intent
to introduce a higher mens rea than the historical
general intent.
Because the antecedent offense was a general intent
offense, we can infer by Congress’s silence on the mens
rea for sexual assault by bodily harm that it impliedly
stated a general intent mens rea for that offense.
C. Statutory Structure
Additionally, the structure of the statute implies a
general intent mens rea. “It is a fundamental canon
of statutory construction that the words of a statute
must be read in their context and with a view to their
place in the overall statutory scheme.” United States
v. Kelly, 77 M.J. 404, 406–407 (C.A.A.F. 2018) (internal
quotation marks omitted) (quoting FDA v. Brown &
Williamson Tobacco Corp., 529 U.S. 120, 133 (2000));
see also United Sav. Ass’n of Tex. v. Timbers of Inland
Forest Assoc., 484 U.S. 365, 371 (1988) (“Statutory
construction . . . . is a holistic endeavor.”). Consequently, “[t]his Court typically seeks to harmonize
independent provisions of a statute.” Kelly, 77 M.J. at
407 (alteration in original) (internal quotation marks
omitted) (quoting United States v. Christian, 63 M.J.
205, 208 (C.A.A.F. 2006)).

9a
Consent is to be determined objectively. Article
120(g)(8)(C), 10 U.S.C. § 920(g)(8)(C) (2012). It is
also to be determined from the alleged victim’s
perspective—consent is his or her freely given agreement. Article 120(g)(8)(A), 10 U.S.C. § 920(g)(8)(A)
(2012). No reference is made to the accused’s perception of consent. Interpreting the statute to require a
specific mens rea on the part of the accused with
respect to consent, as Appellant suggests, would override these provisions. By contrast, inferring a general
intent mens rea, with the ability to raise a mistake of
fact defense, avoids this conflict.
Additionally, where “Congress includes particular
language in one section of a statute but omits it in
another section of the same Act, it is generally presumed that Congress acts intentionally and purposely
in the disparate inclusion or exclusion.” Rodriguez v.
United States, 480 U.S. 522, 525(1987) (internal quotation marks omitted) (citation omitted). In Article
120(b)(2) and 120(b)(3), 10 U.S.C. § 920(b)(2), (3) (2012),
Congress provided an explicit mens rea that the accused
“knows or reasonably should know” certain facts: that
the victim is unaware of the sexual act or incapable of
consenting to it. By contrast, under Article 120(b)(1)(B),
it is an offense simply to commit a sexual act without
consent. The fact that Congress articulated a specific
mens rea with respect to the victim’s state of mind
elsewhere in the statute further demonstrates that the
required mens rea in this case is only the general
intent to do the wrongful act itself.
D. Wrongfulness of the Misconduct
Where Congress has clearly implied a mens rea, this
Court is obliged to respect that legislative intent.
Haverty, 76 M.J. at 204. Because we have determined
that Congress intended Article 120(b)(1)(B) to state a

10a
general intent offense, that is the end of the matter.
We also reject Appellant’s contention that general
intent is insufficient to separate wrongful from innocent conduct because sexual intercourse is ordinarily
innocent conduct.
As a general intent offense, sexual assault by bodily
harm has an implied mens rea that an accused
intentionally committed the sexual act. Cf. United
States v. Grant, 38 M.J. 684, 694 (A.F.C.M.R. 1993)
(considering but disbelieving the appellant’s assertion
that his penis accidentally penetrated the victim’s
vagina when they were in bed together). No mens rea
is required with regard to consent, however.
This does not criminalize otherwise innocent conduct because only consensual sexual intercourse is
innocent. The burden is on the actor to obtain consent,
rather than the victim to manifest a lack of consent.
Appellant’s actions could only be considered innocent
if he had formed a reasonable belief that he had
obtained consent. The Government only needed to
prove that he had not done so to eliminate the mistake
of fact defense. The military judge’s instructions
properly reflected that.
IV. Judgment
The judgment of the United States Army Court of
Criminal Appeals is affirmed.

11a
APPENDIX B
Not Reported in M.J., 2018 WL 2273588
(Army Ct.Crim.App.)
Only the Westlaw citation is currently available.
This opinion is issued as an unpublished opinion
and, as such, does not serve as precedent.
U.S. ARMY COURT OF CRIMINAL APPEALS
————
Army 20160339
————
UNITED STATES,
v.

Appellee,

PRIVATE FIRST CLASS CEDRIC L. MCDONALD,
UNITED STATES ARMY,
Appellant.
————
16 May 2018
————
Headquarters, Joint Readiness Training Center and
Fort Polk, Douglas K. Watkins, Military Judge,
Lieutenant Colonel Christopher L. Burgess
For Appellant: Lieutenant Colonel Christopher D.
Carrier, JA; Captain Joshua B. Fix, JA (on brief);
Lieutenant Colonel Christopher D. Carrier, JA; Major
Todd W. Simpson, JA; Captain Steven Dray, JA;
Captain Joshua B. Fix, JA (on reply brief).

12a
For Appellee: Colonel Tania M. Martin, JA; Lieutenant
Colonel Eric K. Stafford, JA; Captain Austin L.
Fenwick, JA; Captain Sandra L. Ahinga, JA (on brief).
Before CAMPANELLA, SALUSSOLIA, and FLEMING
Appellate Military Judges
————
MEMORANDUM OPINION
SALUSSOLIA, Judge:
In this appeal we consider, but reject, appellant’s
claim that the military judge instructed on an impermissibly low mens rea standard resulting in appellant
being found guilty of sexual assault by bodily harm.
Rather, we affirm appellant’s conviction, finding appellant failed to establish the military judge’s instructions
to the panel constituted plain error.
A panel with enlisted members, sitting as a general
court-martial, convicted appellant, contrary to his
pleas, of one specification of conspiracy to commit
sexual assault and one specification of sexual assault
by bodily harm in violation of Articles 81 and 120,
Uniform Code of Military Justice, 10 U.S.C. §§ 881,
820 (2012) (UCMJ). The convening authority approved
the adjudged sentence of a dishonorable discharge,
confinement for three years, forfeiture of all pay and
allowances, and reduction to the grade of E–1.
We review this case under Article 66, UCMJ.
Appellant assigned two errors, one of which merits
discussion, but neither warrant relief. We have also
considered the matters appellant personally asserted
pursuant to United States v. Grostefon, 12 M.J. 431
(C.M.A. 1982), and conclude appellant’s Grostefon
matters do not warrant relief.

13a
BACKGROUND
In the summer of 2015, appellant’s roommate,
Private (PV2) Thomas, met the victim, DJ, on a dating
website. Prior to the sexual assault, PV2 Thomas and
DJ had met in person on two brief occasions. Appellant
was present during these instances, but neither knew
DJ nor spoke to her.
In the early morning of 31 August at approximately
0100 hours, DJ visited PV2 Thomas at his barracks on
Fort Polk, Louisiana. Prior to her arrival, DJ twice
asked PV2 Thomas via text messages whether anyone
else was in the room with him. Private Thomas replied
no both times. Upon entering PV2 Thomas’ room, DJ
observed the lights were off, the room was dark, and
no one else appeared to be present. Appellant did not
make his presence known to her as he was apparently
hiding in the room.
Unaware of appellant’s presence, DJ laid on PV2
Thomas’ bed, talked to PV2 Thomas, and listened to
music. With the lights still off, DJ and PV2 Thomas
engaged in sexual intercourse. At this point, PV2
Thomas asked DJ to bend over his bed so he could
penetrate her vulva while standing behind her. DJ
complied with his request and the two continued to
engage in sexual intercourse until she asked him to
move a chair that was in the way. Private Thomas
disengaged from the sexual act and moved the chair as
requested.
At this point, appellant and PV2 Thomas took the
opportunity to switch places. Appellant then began
penetrating DJ’s vulva with his penis from behind
while she continued to lay bent over on the bed with
her face on the mattress. She testified appellant did
not identify himself, speak to her in any manner or

14a
otherwise seek consent prior to penetrating her vulva
with his penis. Upon feeling the penetration become
rougher, DJ reached her hand back and felt a wrist
watch on the arm of the individual.
DJ knew PV2 Thomas was not wearing a wrist
watch and testified that upon touching the watch she
“kind of freaked out and the person penetrating her
got scared and backed up.” She did not say anything
or look back because PV2 Thomas told her to keep her
head down on the bed. DJ also testified that she
could tell the individual penetrating her was not PV2
Thomas because she felt a condom and PV2 Thomas
was not wearing one. She also perceived this other
individual as being taller and thinner than PV2 Thomas.
As appellant removed his penis from DJ’s vulva, PV2
Thomas immediately took appellant’s place and again
engaged in sexual intercourse with her from behind.
DJ testified that while subsequently performing
oral sodomy on PV2 Thomas, he “asked me if I would
have sex with his friend that drive [sic] a truck,”
referring to appellant. When DJ stated that she would
not, PV2 Thomas told DJ that she “probably already
[had].” At this point, DJ left the room. Upon leaving,
she saw a person lying on the other bed wrapped in a
blanket. Because it was still dark and her view of the
bed was partially blocked by a partition sheet hanging
from the ceiling, DJ could not identify the individual
wrapped in the blanket.
After she departed the barracks, she and PV2
Thomas communicated via text messaging about what
had transpired in the room. Private Thomas denied
appellant’s presence in the room messaging that the
individual “wasn’t the dude in the truck” and “I can’t
tell you who it was.” Later the same day, DJ reported
that she was sexually assaulted.

15a
During the trial, appellant challenged the government’s theory that the sexual intercourse between
appellant and DJ was nonconsensual. Appellant did
this through extensive cross-examination of government witnesses, reliance on certain statements made
by appellant to the U.S. Army Criminal Investigation
Command (CID), and the presentation of one witness
during the defense case-in-chief testifying to appellant’s character for truthfulness.
Prior to panel deliberations, the military judge gave
the parties copies of his instructions. He provided
them time to review the instructions and allowed both
sides the opportunity to make objections. Appellant
did not object to the final version of the instructions
read and provided to the members.
As to Specification 2 of Charge II, the offense of
sexual assault by bodily harm,1 the military judge’s
instructions mirrored the Military Judge’s Benchbook
and the statutory language of Article 120, UCMJ. See
Dep’t of Army, Pam. 27–9, Legal Services: Military
Judges’ Benchbook, para. 3–45–14 (10 Sept. 2014).
The military judge also instructed the panel members
on the defense of mistake of fact as to consent in
1

The elements for a violation of Article 120, UCMJ, sexual
assault by bodily harm are: 1) that the accused committed a
sexual act upon another person by; 2) causing bodily harm to that
other person. Manual for Courts–Martial, United States (2012
ed.) (MCM), pt. IV ¶ 45.a.(b)(1)(B). In pertinent part, a sexual act
is: “contact between the penis and the vulva . . . and for purposes
of this subparagraph contact involving the penis occurs upon
penetration, however slight[.]” Id. at ¶ 45.a.(g)(1)(A). Bodily harm
is “any offensive touching of another, however slight, including
any nonconsensual sexual act or nonconsensual sexual contact.”
Id. at ¶ 45.a.(g)(3). In appellant’s case, the sexual act—penetrating
DJ’s vulva with his penis—was also the very same bodily harm
caused.

16a
relation to this offense. In addition to the offense of
conspiracy to commit sexual assault, appellant was
convicted of Specification 2 of Charge II.
Though appellant did not object to the instructions
or request additional instructions concerning the
offense of sexual assault by bodily harm or the mistake
of fact defense, he now asserts the military judge’s
instructions on the elements for this offense are insufficient in light of Elonis v. United States ––– U.S. ––––,
135 S.Ct. 2001, 192 L.Ed.2d 1 (2015), United States v.
Gifford, 75 M.J. 140 (C.A.A.F. 2016), and United States
v. Haverty, 76 M.J. 199 (C.A.A.F. 2017).2 Specifically,
appellant asserts Elonis, Gifford, and Haverty require
a mens rea of at least recklessness for the element
of “bodily harm.” Because the military judge failed to
instruct on the mens rea of recklessness, appellant
was convicted under an erroneous theory of liability.
Accordingly, appellant requests the court dismiss
Specification 2 of Charge II and set aside the sentence.
LAW AND ANALYSIS
Rule for Courts–Martial (R.C.M.) 920(f) states “[f]ailure
to object to an instruction . . . before the members close
to deliberate constitutes waiver of the objection in the
absence of plain error.” In other words, failure to object
forfeits the issue absent plain error. United States v.
Davis, 76 M.J. 224, 225 (C.A.A.F. 2017). When an
“accused fails to preserve the instructional error by an
adequate objection or request, we test for plain error.”
Id. at 229 (citing United States v. Girouard, 70 M.J. 5,
11 (C.A.A.F. 2011)); see also Henderson v. United
States, 568 U.S. 266, 133 S.Ct. 1121, 185 L.Ed.2d 85

2

Appellant’s trial commenced after Elonis and Gifford were
decided.

17a
(2013) (reaffirming the principle that any right may be
forfeited by failing to timely assert it).
Under a plain error analysis, appellant has the
burden of proving: “(1) an error was committed; (2) the
error was plain, clear, or obvious; and (3) the error
resulted in material prejudice to substantial rights.”
United States v. Paige, 67 M.J. 442, 449 (C.A.A.F.
2009) (quoting United States v. Maynard, 66 M.J. 242,
244 (C.A.A.F. 2008)). “Once [appellant] meets his burden
of establishing plain error, the burden shifts to the
Government to convince us that this constitutional
error was harmless beyond a reasonable doubt.” Paige,
67 M.J. at 449 (quoting United States v. Carter, 61
M.J. 30, 33 (C.A.A.F. 2005)). On the other hand, “[t]he
failure to establish any one of the prongs is fatal to a
plain error claim.” United States v. McClour, 76 M.J.
23, 25 (C.A.A.F. 2017) (quoting United States v.
Bungert, 62 M.J. 346, 348 (C.A.A.F. 2006)).
Because appellant did not object nor request additional instructions regarding a mens rea of at least
recklessness, we test for plain error. First, we find
nothing in the record to suggest that the military judge
applied an impermissibly low mens rea standard in
adjudicating the charge against the appellant for
committing a sexual assault by causing bodily harm.
Even assuming arguendo that the military judge
committed an obvious error by not instructing on a
mens rea of recklessness, we find no material prejudice
to appellant’s substantial rights because we find
Specification 2 was factually sufficient even applying
a scienter of recklessness.3

3

Recklessness requires an accused “knew that there was a
substantial and unjustifiable risk that the social harm the law
was designed to prevent would occur and ignored this risk when

18a
Here, appellant’s misconduct of having sexual intercourse with DJ without her consent was at the very
least reckless, but more likely purposeful. See United
States v. Flournoy, ARMY 20160451, 2018 WL 793658,
at *2, 2018 CCA LEXIS 58 at *6 (Army Ct. Crim. App.
8 Feb. 2018) (sum. disp.) pet. den., 77 M.J. ––––, 2018
CAAF LEXIS 236 (C.A.A.F. 7 May 2018). Prior to
being sexually assaulted by appellant, DJ was not
aware appellant was present in the room. The factors
contributing to her unawareness include: 1) PV2
Thomas’ two time denial that anyone else was in the
room; 2) limited visibility in the room due to the lights
being turned off; and 3) a sheet partially blocking a
view of appellant’s bed. Appellant also did not say or
do anything to indicate his presence.
Only upon reaching back and touching appellant’s
watch, did DJ become aware that someone other than
PV2 Thomas was engaging in sexual intercourse with
her. Even then appellant said nothing while PV2
Thomas instructed her to keep her head down on the
bed to prevent her from identifying appellant. While
we recognize appellant’s statement to CID and PV2
Thomas’ in-court testimony assert that DJ consented,
we are not convinced of the veracity of these claims
in light of their self-serving nature and multiple
inconsistencies.
Based on the evidence contained in the record, it
is clear appellant exploited the cover of darkness to
conceal his identity from DJ as he switched places with
PV2 Thomas and engaged in nonconsensual sexual
intercourse with DJ. We thus conclude appellant’s
engaging in the prohibited conduct.” See United States v. Haverty,
76 M.J. at 204–05 (citing Black’s Law Dictionary 1462 (10th ed.
2014)).

19a
misconduct was done knowingly if not, at the very
least, reckless and that any lack of instruction on the
scienter of recklessness was not plain error.
CONCLUSION
The findings of guilty and the sentence are
AFFIRMED.
Senior Judge CAMPANELLA and Judge FLEMING
concur.

20a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
WASHINGTON, D.C.
————
USCA Dkt. No. 18-0308/AR
Crim.App. No. 20160339
————
UNITED STATES,
Appellee,

v.
CEDRIC L. MCDONALD,

Appellant.
————
ORDER
On consideration of Appellant’s petition for reconsideration of this Court’s opinion in United States v.
McDonald, __ M.J. __ (C.A.A.F. 2019), the motion of
the United States Army Trial Defense Service (USATDS)
for leave to appear pro hac vice, and the motions of
USATDS, counsel for Lieutenant Jacob A Patrick, U.S.
Navy, and “Interested Military Justice Practitioners”
(IMJP), to file amicus curiae briefs in support of Appellant, it is, by the Court, this 29th day of May, 2019,
ORDERED:
That the motion to appear pro hac vice is granted;
That the motions for leave to file amicus curiae
briefs are granted as to USATDS and LT Patrick;
That the motion for leave to file an amicus curiae
brief is denied as out of time as to IMJP;

21a
That the petition for reconsideration is hereby
denied; and
That the mandate issue forthwith.
For the Court,
/s/ Joseph R. Perlak
Clerk of the Court
cc: The Judge Advocate General of the Army
Appellate Defense Counsel (Dray)
Appellate Government Counsel (Ahinga)
USATDS Counsel (O’Brien)
Counsel for LT Patrick

